   DOE/IG-0024
                            United States Department of Energy




                              Office of Inspector General

                                      Semiannual
The Inspector General's
Message - Page 1
                             Report to
                              Congress
The Department's
Management Challenges
Page 2

Other Significant
Accomplishments
Page 33




OIG Reports Issued
and Followup Action
Process - Page 41

Statistical Data-Savings,
Questioned Costs,
Hotline Statistics, and
Fines, Settlements
and Recoveries
Page 45
                                  October 1, 2001 - March 31, 2002
                                           At Your Service


                                   April 30, 2002




The Honorable Spencer Abraham
Secretary
U.S. Department of Energy
Washington, D.C. 20585

Dear Secretary Abraham:

I am pleased to submit the Office of Inspector General’s (OIG) Semiannual Report to
Congress. This Report summarizes significant OIG activities and accomplishments
during the 6-month period ending March 31, 2002.

The Report reflects our continuing commitment to focus OIG efforts on the issues and
concerns most critical to you, the Administration, and the Congress. In particular, it
describes OIG accomplishments in identifying the most significant management
challenges facing the Department.

We look forward to working with you on matters of mutual interest.

                                                 Sincerely,




                                                 Gregory H. Friedman
                                                 Inspector General


Enclosure




                                Printed with soy ink on recycled paper
                        At Your Service




                    THE INSPECTOR GENERAL'S           1
                    MESSAGE
Table of Contents




                    MANAGEMENT CHALLENGES             2
                    AND SIGNIFICANT ACCOMPLISHMENTS



                    OTHER SIGNIFICANT                 33
                    ACCOMPLISHMENTS



                    REPORTS ISSUED                    41



                    STATISTICS                        45
                                                                            At Your Service



                                                                 I        am pleased to provide the Office of Inspector General
                                                                 (OIG) Semiannual Report to Congress. The report
                                                                 summarizes significant OIG accomplishments for the
Inspector General's Message


                                                                 reporting period October 1, 2001, to March 31, 2002. During
                                                                 this period, we continued to support senior leadership of the
                                                                 Department of Energy (Department) and the Congress by
                                                                 identifying opportunities for improving management, program
                                                                 performance, and accountability.

                                                                 In this vein, in December 2001, the OIG completed its annual
                                                                 assessment of the most significant management challenges
                                                                 facing the Department, including the National Nuclear
                                                                 Security Administration (NNSA). These are:

                                                                          ♦    Performance Management
                                                                          ♦    Stockpile Stewardship
                                                                          ♦    Security and Safety
                                                                          ♦    Information Technology
                                                                          ♦    Energy Supply
                              Gregory H. Friedman                         ♦    Human Capital
                               Inspector General                          ♦    Environmental Standards and Stewardship
                                                                          ♦    Research and Development Investment
                                                                          ♦    Contract Administration
                                                                          ♦    Infrastructure and Asset Management

                                                                 The OIG is committed to serving as a facilitator of
                                                                 management reform by continuing to evaluate program
                                                                 performance in these critical areas. These issues are central to
                                                                 the President’s Management Reform Agenda, as well as the
                                                                 Secretary’s mission priorities.

                                                                 We have summarized our most recent work on these issues in
                                                                 this report, and look forward to being of continued assistance
                                                                 in the future.




                              Additional information on the OIG, including the full text of its public reports and Department
                              management’s comments, can be found on the OIG website – www.ig.doe.gov.                          1
                                                                            At Your Service



                                                                  A        summary of the OIG’s 2001 special report on the
                                                                  Department’s management and performance challenges
                                                                  follows:
Significant Accomplishments
Management Challenges and




                                                                  Management Challenges Facing the Department
                                                                  in 2002 and Beyond

                                                                  For the past several years, at the request of congressional
                                                                  leadership, the OIG has reviewed the most significant
                                                                  management and performance challenges facing the
                                                                  Department. This effort, now required by the Reports
                                                                  Consolidation Act of 2000, is conducted on an annual basis
                                                                  and includes an assessment of the agency’s progress in
                                                                  addressing each challenge area. As in the past, the
                                                                  methodology employed by the OIG for this review is based
                                                                  on recent and ongoing audit, inspection, and investigative
                                                                  work.

                                                                  Many of the challenges identified in the OIG report parallel
                                                                  the mission and priorities of the Department as outlined by
                                                                  the Secretary. Prevalent in the Secretary’s outline were
                                                                  priorities relating to energy supply, environmental standards
                                                                  and stewardship, human capital, performance management,
                                                                  research and development investment, security and safety,
                                                                  and stockpile stewardship.

                                                                  Department management has initiated a number of positive
                                                                  actions to address some of the challenges. The OIG will
                                                                  continue to evaluate the Department’s progress in addressing
                                                                  these issues. (IG-0538)

                                                                  The following are highlights of OIG accomplishments in the
                                                                  management challenge areas for which final reports were
                                                                  issued during the reporting period:

                                                                      Performance Management
                                                                  In 1993, Congress enacted the Government Performance and
                                                                  Results Act (GPRA) to require agencies to focus Federal



                              Additional information on the OIG, including the full text of its public reports and Department
    2                         management’s comments, can be found on the OIG website – www.ig.doe.gov.
                   At Your Service

          programs on performance. More recently, under the
          President’s Improved Financial Performance management
          reform initiative, Federal agencies must obtain and sustain
          “clean” audit opinions. Although some progress has been
          made, more needs to be done to ensure that the Department
          has the appropriate metrics in place to manage its programs
          and operations effectively. Based on OIG financial statement
          audits, the Department has made improvements in its
          financial management system and has for 3 years in a row
          received a “clean” audit opinion. The following is a summary
          of the OIG’s audit of the Department’s consolidated financial
          statements:

          Report on the Department of Energy’s
economy

          Consolidated Financial Statements

          The Department received an unqualified (clean) opinion on
          its Fiscal Year (FY) 2001 consolidated financial statements.
          This marks the third year in a row for such an opinion. The
          OIG conducted the audit pursuant to the Government
          Management Reform Act of 1994 (GMRA). The objective of
          the GMRA is to improve financial practices of Federal
          agencies. The preparation of the statements is the
          responsibility of the Department, and the OIG is responsible
          for the audit.

          The OIG contracted with the accounting firm of KPMG LLP
          to conduct the audit. The accounting firm concluded that the
          financial statements present fairly, in all material respects, the
          Department’s financial position as of September 30, 2001,
          and its net costs, changes in net position, budgetary resources,
          reconciliation of net costs to budgetary obligations, and
          custodial activities for the year then ended. The OIG agreed
          with this opinion.

          As part of this determination, the auditors considered the
          Department’s internal control over financial reporting and
          tested the Department’s compliance with certain provisions of
          applicable laws and regulations that could have a direct and
          material effect on the consolidated financial statements.

          Four reportable conditions in the Department’s system of
          internal controls were identified. These related to: (1)
          Performance Measurement Reporting; (2) Unclassified


                                                                         3
                          At Your Service

                 Information System Security; (3) Financial Management at
                 the Western Area Power Administration; and (4)
                 Environmental Liabilities for Active Facilities. The first
                 three of these items represent repeat findings from the prior
                 year’s audit report.

                    The Department has made progress improving its
                    performance measurement reporting, but more remains to
                    be done to satisfy the requirements of the GPRA and
                    related OMB guidance. Specifically, performance goals,
                    in many cases, were not output- or outcome-oriented,
                    some were not meaningful or relevant, and some were not
                    stated in objective or quantifiable terms. Additionally,
    efficiency

                    the relationship between operating costs and actual
                    outcomes was not transparent. The weaknesses limit the
                    casual reader’s ability to properly assess the Department’s
                    performance.

                    The Department has certain network vulnerabilities and
                    general access control weaknesses that could affect
                    unclassified information system security. As previously
                    reported, full implementation of the Department’s Cyber
                    Security Program should help ensure that Federal
                    information standards are met and that information
                    systems are adequately protected against unauthorized
                    access.

                    The Department’s Western Area Power Administration
                    (Western) did not uniformly perform reconciliations and
                    could not promptly prepare account analyses. These
                    problems increased the risk of significant misstatements
                    in Western’s financial statement balances and were the
                    principal reason that its FY 2001 financial statements
                    were not ready for separate audit. To compensate for the
                    increased control risk created by these conditions, the
                    auditors performed agreed-upon procedures to verify the
                    reliability of Western’s financial information and account
                    balances included in the consolidated financial
                    statements.

                    The Department’s Active Facilities Data Collection
                    System contained inaccurate data, including incorrect




4
                         At Your Service

                   facility types and errors in reported square footage, which
                   prior to audit adjustment, overstated the active facilities
                   environmental liability estimate.

                To ensure the quality of the audit, the OIG approved the
                scope of KPMG’s assignment and monitored their work.
                The OIG also reviewed the audit report and related working
                papers to ensure compliance with applicable auditing
                standards.
effectiveness
                The OIG transmittal memorandum and the KPMG audit
                report are included in the Department’s Fiscal Year 2001
                Performance and Accountability Report, DOE/ME-0011.
                (IG-FS-02-01)

                   Stockpile Stewardship
                This year, the OIG identified the efficient and effective
                performance of NNSA’s primary mission, Stockpile
                Stewardship, as a significant management challenge.
                OIG reviews continue to disclose difficulties the Department
                is having with meeting this critical mission, which is vital to
                our national security. Recent examples include:

                Backlogs Identified in Stockpile Surveillance
                Testing Program
                Under the Stockpile Stewardship program, the Department
                conducts surveillance testing as part of its annual certification
                to the President that the Nation’s nuclear weapons stockpile
                is safe and reliable. Each year, the Department randomly
                selects approximately 100 weapons upon which to conduct
                various surveillance tests, including flight tests, laboratory
                tests, and component tests.

                The OIG conducted an audit to determine whether the
                Department’s stockpile surveillance testing program was
                meeting scheduled milestones. The audit found that since
                1996, the Department had not met many of its internally
                generated milestones for flight, laboratory, and component
                tests. This has resulted in a significant testing backlog that is
                projected to continue for several years.




                                                                               5
                       At Your Service

              The OIG recommended that the Deputy Administrator for
              Defense Programs develop a management plan to address the
              backlog of flight, laboratory, and component tests.
              Management generally agreed with the OIG’s
              recommendations and assured that actions to eliminate
              backlogs were being initiated. Management advised that
              most of the backlogs are scheduled to be eliminated by the
              first part of FY 2003. (IG-0528)

              Improvements Needed in the Department’s
              Processing of Stockpile Surveillance Program’s
              Significant Finding Investigations
              In accordance with annual reporting and certification
    economy

              requirements under the Department’s Stockpile Stewardship
              program, nuclear weapons laboratories must annually assess
              and report the condition of weapons systems for which they
              are responsible. Significant finding investigations are
              conducted to determine the cause and impact of a defect or
              malfunction and to recommend corrective action.

              The OIG conducted an audit to determine whether the
              processing of significant finding investigations was being
              carried out in a timely manner. The audit found that the
              Department was not always meeting internally established
              timeframes for resolving investigations of defects and
              malfunctions in nuclear weapons. In some instances,
              confirming the need for an investigation of an identified
              defect or malfunction took over 300 working days, despite
              the Department’s 45-day requirement. It also was determined
              that the Department did not have complete or readily
              accessible information on either the status of investigations or
              action plans detailing how significant finding investigations
              would be completed.

              Taken together with the report on Stockpile Surveillance
              Testing (DOE/IG-0528), serious concerns have been raised
              about the process the Department has employed to maintain a
              satisfactory confidence level in the nuclear weapons
              stockpile.

              The OIG recommended that the Deputy Administrator for
              Defense Programs develop and implement a laboratory-wide
              database to track the notification and resolution phases of the


6
                      At Your Service

             significant finding investigation process. Department
             management generally agreed with OIG recommendations
             and advised that corrective actions would be implemented in
             the near future. (IG-0535)

                Security and Safety
             The Department’s complex is large and multi-faceted with a
             wide variety of locations, facilities, sensitive materials, and
             activities that must be kept safe and secure. However, OIG
             reviews continue to demonstrate that security and safety
             controls need to be strengthened. Specifically, OIG reports
             identified the following weaknesses in the Department’s
efficiency

             security and safety program:

             Audit Identifies Weaknesses in Personnel
             Security Clearances and Badge Access Controls
             at Department Headquarters
             The OIG conducted an audit to determine whether the
             Department had appropriately terminated unnecessary
             security clearances and/or recovered unneeded badges at
             Headquarters.

             The OIG reviewed 147 Headquarters Federal and contractor
             employee badge records. The review determined that in nine
             cases, the Department had either not terminated clearances or
             recovered unnecessary badges. In three of these instances,
             the Department’s data systems indicated that the individuals
             held Q clearances although all three had no continuing
             business with the Department. The remaining six were
             shown as having badges granting access to Department
             facilities when they were no longer employed by the
             Department or its contractors. It was found that these errors
             occurred because program offices did not always provide
             employment information to Headquarters Security
             Operations. In addition, program offices did not always hold
             contractors accountable for adherence to Department policy
             regarding clearance termination and badge recovery.

             The OIG recommended that the Office of Headquarters
             Operations expeditiously review and correct all data in the




                                                                           7
                             At Your Service

                    Department’s clearance and badge control systems. The OIG
                    also recommended a number of system enhancements to
                    improve communication among program offices,
                    Headquarters Security Operations, and the Department’s
                    clearance-related information systems. Management
                    concurred with the audit report recommendations. (IG-0548)

                    Weaknesses Found in System Used to Track and
                    Account for Sealed Sources of Nuclear Materials
                    Provided to Foreign Countries
    effectiveness
                    Through the Atomic Energy Act of 1954, the Department and
                    its predecessor agencies provided nuclear materials to foreign
                    facilities as part of the Atoms for Peace Program. The
                    materials provided, including fuel rods, sealed sources, and
                    raw materials, remained Government-owned. Beginning in
                    the 1960’s, the Government discontinued its policy of lending
                    the material and began to transfer ownership through sale or
                    donation. According to Department records, however, the
                    Government still retained title to much of the nuclear material
                    provided to foreign entities.

                    The Department’s Nuclear Materials Management and
                    Safeguards System (NMMSS) was designed, in part, to
                    provide a system of accounting and control over source and
                    special nuclear materials. The Department also maintained a
                    separate registry to account for and track the location of
                    “Sealed Sources.” Sealed Sources are nuclear or radiological
                    material packaged to be environmentally safe. The Sealed
                    Source registry was discontinued in 1984.

                    The OIG conducted an audit to determine whether the
                    Department could account for Government-owned sealed
                    sources provided to foreign countries.

                    The audit found that the Department could not fully account
                    for the sealed sources of nuclear materials loaned to foreign
                    countries. Specifically, the Department did not maintain a
                    database of sealed sources loaned to foreign entities that
                    would identify their current location and condition.
                    Furthermore, the OIG found that available information was
                    inconsistent as to whether the Government continued to own
                    certain sources or whether the Department was responsible



8
                   At Your Service

          for their final disposition. While requirements set up by the
          Atomic Energy Commission called for NMMSS to track
          sealed sources, these requirements were not enforced. In
          addition, international agreements, negotiated with countries
          receiving our material, do not allow for monitoring and
          tracking of nuclear material after export or provide necessary
          safeguards over all sealed sources.

          The OIG recommended that the Director, Office of Security:
          (1) continue ongoing reconciliation to determine whether the
          Government continues to own any of the sealed sources
          located in foreign countries; (2) update NMMSS to reflect the
          results of the ownership determination and the other follow-
          up actions discussed below; and (3) provide information on
economy

          any sealed sources identified as Government-owned to the
          Office of Environmental Management for use in disposition
          planning.

          The OIG also recommended that the Deputy Administrator
          for Defense Nuclear Nonproliferation within NNSA: (1)
          work with the International Atomic Energy Agency and other
          agencies to ensure that all sealed sources produced by the
          Government, even if they are no longer Government-owned
          property, are properly controlled; and (2) identify the current
          location and condition of any sealed sources determined to be
          Government-owned.

          The Office of Security concurred with the OIG’s
          recommendations and proposed corrective actions. The
          Associate Administrator for Management and Administration
          disagreed with recommendations directed to the Deputy
          Administrator for Defense Nuclear Nonproliferation, stating
          that the Department is not required to monitor and track
          sealed sources after export and to do so would require
          changes in executive policy, international agreements, and
          resources. (IG-0546)

          Inadequate Control and Accountability of
          Department Sealed Radioactive Sources
          Sealed radioactive sources are used in large numbers at
          Department facilities. Sealed sources are used most
          commonly for the testing and calibration of radiation




                                                                      9
                           At Your Service

                  detection instrumentation. The Department is required by
                  regulation to establish and implement strict accountability
                  and control over sealed radioactive sources at its facilities.
                  The OIG conducted an inspection to determine the adequacy
                  of procedures implemented by the Department, including
                  NNSA, and its contractors for controlling, safeguarding, and
                  disposing of sealed radioactive sources.

                  The OIG found no evidence that the Department’s work with
                  sealed radioactive sources adversely impacted the safety and
                  health of Department contractor employees or the public.
                  The inspection did determine that actions are needed by
                  Department line managers to assure that sealed radioactive
                  sources are properly controlled, inventoried, and leak-tested
     efficiency

                  in accordance with Federal rules and local site procedures.
                  Additionally, the inspection revealed that management
                  contractors at Department sites are making decisions
                  concerning the disposition of their unwanted sealed
                  radioactive sources with minimal input from Department
                  officials. The absence of a Departmentwide approach to
                  disposition of sealed radioactive sources fails to allow cost-
                  effective alternatives to be considered. Although each
                  Department site has responsibility for determining how it will
                  dispose of its unwanted sealed radioactive sources, the
                  Department has not issued specific guidelines to ensure that
                  there are viable disposition paths for surplus sealed
                  radioactive sources. Furthermore, some sites are not aware of
                  an organization, the Nonactinide Isotopes and Sealed Source
                  Management Group, which could possibly provide
                  disposition assistance to the sites.

                  The OIG recommended that the Under Secretary for Energy,
                  Science and Environment and the NNSA Administrator:
                  (1) ensure that line management officials under their purview
                  take appropriate action to assure that sealed radioactive
                  sources are properly controlled, inventoried, and leak tested
                  in accordance with the requirements in applicable Federal
                  rules and local site procedures; and (2) coordinate with each
                  other to develop and implement actions to assist sites to
                  identify cost-effective reuse and disposal alternatives for
                  unwanted sealed radioactive sources. Department
                  management concurred with the OIG recommendations and
                  agreed to take corrective actions. (IG-0544)




10
                         At Your Service

                Better Coordination/Communication Between
                Agencies Needed in Export License Application
                Process
                The National Defense Authorization Act for Fiscal Year 2000
                contained a provision that not later than March 30 of each
                year through 2007, the President will submit to Congress an
                annual report on the Government’s policies and procedures
                with respect to the export of technologies and technical
                information with potential military applications to countries
effectiveness
                and entities of concern. Under the Act’s provisions, annual
                audits in this area are to be conducted by the Inspectors
                General of the Departments of Energy, Commerce, Defense,
                and State. An interagency working group comprised of
                representatives from those OIGs and the OIG of the
                Department of the Treasury selected automated export
                control systems as the focus of the 2002 annual audit report.

                The purpose of our inspection was to determine the adequacy
                of the Department of Energy’s (DOE’s) current automated
                system for processing export license applications. The
                objectives were to: (1) determine whether the Proliferation
                Information Network System (PINS), which contains DOE’s
                Export Information System, provides sufficient capability to
                support export licensing activities by DOE’s Office of
                Export Control Policy and Cooperation (ECPC Office) and
                (2) review actions by DOE in support of the Department of
                Defense’s United States Export Systems (USXPORTS)
                Program Management Office to establish a common
                electronic interface to connect automated export licensing
                systems of various Federal agencies. We also sought to
                determine the status and disposition of recommendations we
                made in a March 2000 report concerning DOE’s export
                license process for foreign national visits and assignments.

                The OIG concluded that the PINS automated system is
                adequate to support the ECPC Office in fulfilling its
                responsibilities. We also concluded that improvements are
                needed in communication between DOE and the Department
                of State (State) regarding export license applications referred
                by State to DOE for review. It was further determined that
                although DOE has provided support to the USXPORTS




                                                                             11
                                              At Your Service

                                     Program Management Office, it has not had a significant role
                                     in the development of the USXPORTS automated system.

                                     With regard to the six open recommendations in our March
                                     2000 report, one recommendation has been administratively
                                     closed, while five recommendations remain open pending
                                     issuance of a DOE order regarding foreign visits and
                                     assignments.

                                     The OIG recommended that the Assistant Deputy
                                     Administrator for Arms Control and Nonproliferation
                                     coordinate with the Departments of Commerce and the
                                     Treasury to ensure access by DOE to information within the
                                     Automated Export System regarding the purchase and/or
                                     shipment of commodities under an approved export license
                                     and develop guidelines for DOE’s access to the information.
                                     We also recommended that the Assistant Deputy
                                     Administrator coordinate with State to: (1) improve
                                     communications regarding reviews of export license
                                     applications for munitions commodities and (2) ensure access
                                     by DOE to information maintained by State regarding final
                                     disposition of export license applications and develop
                                     guidelines for DOE’s access to the information. Management
                                     concurred with the recommendations. (IG-0533)

     Did you know?                      Information Technology
     Federal IT spending will rise   The Department spent over $1.1 billion on information
     from $32.9 billion in 1999 to
     an estimated $50 billion in
                                     technology (IT) in FY 2001. Effective IT management is
     2003.                           essential to the Department’s performance of its multifaceted
                                     mission. In addition, Expanded Electronic Government is
     Source: Budget of the United
     States Government, FY 2003
                                     one of the President’s Governmentwide initiatives for FY
                                     2002. The goals are for the Federal Government to secure
                                     greater services at lower cost through electronic government
                                     and meet high public demand for services. While the
                                     Department has taken a number of actions to improve the
                                     overall management of IT, including cyber security, more
                                     progress could be made to improve its performance in this
                                     critical area. Several OIG reviews completed during this
                                     reporting period provided recommendations on ways in
                                     which the Department could enhance the performance of IT
                                     activities.




12
                                           At Your Service

                                  Improvements Needed in Cyber-Related Critical
                                  Infrastructure Identification and Protection
                                  Measures
                                  The OIG conducted an audit to determine whether the
Did you know?                     Department had identified and developed protection measures
According to a 2002 Computer      for its critical cyber and related physical infrastructure assets.
Crime and Security Survey
performed by the Computer         The audit determined that while the Department had initiated
Security Institute, 90 percent    certain actions, it had not made sufficient progress in
of respondents (primarily large
corporations and Government
                                  identifying and developing protective measures for certain
agencies) detected computer       critical infrastructures or assets. Identification of national
breaches within the last 12       priority assets had not been finalized, and specific
months. Eighty percent            identification of critical cyber-related assets had not begun.
acknowledged financial losses
due to computer breaches.
                                  Corrective actions to address issues disclosed by a previous
Forty-four percent of the         OIG audit of the Department’s infrastructure protection
respondents estimated that        program were also progressing slowly and remained
their financial losses related    incomplete. In addition, specific quantifiable infrastructure
to the attacks totaled about
$455.8 million.
                                  protection-related performance measures had not been
                                  developed, and the Department’s critical infrastructure
Source: Computer Security         protection plan had not been updated.
Institute Website

                                  The OIG proposed a series of actions designed to improve
                                  implementation of the critical infrastructure protection
                                  program. Department management concurred with the OIG
                                  recommendations but did not assign responsibility or
                                  authority for implementing and executing most of the
                                  recommendations, preferring instead to defer action until
                                  completion of a national-level protection plan by the Office
                                  of Homeland Security. (IG-0545)

                                  Cyber Security Program Does Not Comply with
                                  the Privacy Act of 1974 and the Computer
                                  Security Act of 1987
                                  The OIG conducted an inspection to determine whether the
                                  Department’s cyber security program met certain statutory
                                  privacy requirements designed to protect Department
                                  employees’ personal information from the risks associated
                                  with possible loss. Specifically, the inspection related to
                                  possible compromise of this type of information on or over
                                  Department Headquarters and field site computer networks.




                                                                                                13
                        At Your Service

               The OIG inspection concluded that the Department: (1) does
               not have Departmentwide baseline criteria for protecting
               Privacy Act information; (2) does not group Privacy Act
               information with other unclassified sensitive information for
               protection; and (3) allows individual sites and program
               offices to develop differing security measures for protection
               of Privacy Act information.

               The OIG recommended that the Administrator, NNSA, and
               the Chief Information Officer, in conjunction with the
               Director, Freedom of Information and Privacy Acts Division,
               evaluate the need for additional policy or direction regarding
               Departmentwide security requirements to protect Privacy Act
               information maintained on, or transmitted to and from,
     economy

               Department computer systems connected to the internet,
               intranet (e.g., DOEnet), or e-mail. Department management
               agreed with the OIG recommendation and provided several
               corrective actions that will be taken with regard to additional
               policy and protections for this type of sensitive information.
               (IG-0531)

               Management of Telecommunications
               Infrastructure Needs Improvement
               The OIG conducted an audit to determine whether the
               Department had taken steps to consolidate and optimize its
               telecommunications infrastructure, including its voice, data,
               and video services, as required by the Clinger-Cohen Act of
               1996 and Office of Management and Budget guidance.

               The audit found that duplicative data transmission
               infrastructures existed across the complex and the
               Department had not optimized the acquisition of internet
               and video services. Specifically: (1) organizations
               maintained about 190 data transmission circuits that
               duplicated capabilities of other Departmentwide networks;
               (2) a number of sites utilized open market sources to acquire
               internet service that could have been provided from existing
               capacity; and (3) organizations were maintaining video
               teleconferencing capabilities that were incompatible
               with corporate networks. As a consequence, the OIG
               determined that the Department annually spends at least
               $4 million more than necessary to operate and maintain its
               telecommunications infrastructure.


14
                     At Your Service

             The OIG made a number of recommendations designed to
             improve the performance of the Department’s
             telecommunications infrastructure. Department management
             agreed with the OIG recommendations and plans to take
             corrective action. (IG-0537)

             Hacker Guilty of Unauthorized Access to
             Government Computers
             A joint investigation with the Federal Bureau of Investigation
             established that an individual gained unauthorized access to
             Government-owned computers at the Department’s Lawrence
             Livermore National Laboratory, Livermore, California. The
efficiency

             investigation determined that the hacker modified data files
             and downloaded budget material from Livermore’s computer
             network. None of the information was classified.

             The U.S. Attorney’s Office for the District of Northern
             California accepted the case for prosecution. The subject of
             the investigation pleaded guilty to one felony count of
             violating Title 18, United States Code, Section 1030, Fraud
             and Related Activity in Connection with Computers.
             Sentencing is pending. (I00TC007)

             Unauthorized Computer Intrusion into
             Department Firewalls

             An OIG joint investigation with the U.S. Army Criminal
             Investigation Division and the New Jersey State Police
             substantiated allegations that a New Jersey resident gained
             unauthorized access to four Department of Energy and four
             U.S. Army computer systems.

             The investigation resulted in the subject pleading guilty in
             New Jersey State Court to “Computer Related Theft and
             Theft by Unlawful Taking.” The subject was subsequently
             sentenced to 1 year suspended sentence; 3 years probation;
             100 hours community service; and $5,000 restitution to the
             Department. (I01TC004)




                                                                        15
                             At Your Service

                     Unauthorized Intruder Compromises
                     Government Laptop
                     An OIG investigation determined that an unauthorized
                     intruder compromised a Government-owned laptop issued to
                     a contractor employee at the Department’s Lawrence
                     Livermore National Laboratory. The intruder was found to
                     have deleted data and system files from the laptop. The
                     intrusion occurred due to inadequate computer systems
                     configuration management and cyber security policies.
     effectiveness
                     The OIG issued an Administrative Report to Management
                     (ARM) reporting the results of the investigation and making
                     recommendations regarding cyber security and computer
                     systems configuration management policy at Livermore.
                     Management informed the OIG that an extensive automated
                     Intrusion Detection and Response System has been
                     implemented and standard configuration guidelines have been
                     issued. (I01TC010)

                     Misuse of a Government Computer by a
                     Department Employee

                     An OIG investigation determined that a Bonneville Power
                     Administration (BPA) employee misused an assigned
                     Government-owned computer. The employee was found to
                     have downloaded and viewed approximately 1,100 images of
                     adult pornography.

                     The U.S. Attorney’s Office for the Western District of
                     Washington advised that administrative action would be
                     appropriate in this matter. Subsequently, the OIG issued an
                     ARM reporting the results of the investigation and
                     recommending that BPA take appropriate administrative
                     action against the employee. BPA management subsequently
                     terminated the individual’s employment. (I01TC024)




16
                                                       At Your Service

                                                  Energy Supply
                                               As the agency responsible for national energy policy, the
                                               Department will have a critical role in addressing the
                                               Nation’s energy supply and demand challenge. Energy
                                               supply issues represent one of the most important policy and
                                               programmatic challenges facing the Department. As the
                                               Administration and Congress have recognized, energy supply
                                               issues have serious implications for our economic and
                                               national security. A variety of reviews are currently ongoing
                         Bayou Choctaw Site,   or planned in this area. As an example, the OIG completed
 Six-Phase Electric
Transmission Tower
                         Strategic Petroleum   the following review:
                               Reserve

                                               Contractor Reimburses the Department for
                                               Natural Gas Overcharges

                                               During the course of an OIG investigation, a prime contractor
                                               at the Ashtabula Environmental Management Project
                                               (AEMP), Ashtabula, Ohio, credited the Department for
                                               charges billed in excess of actual costs incurred for natural
                                               gas. The overcharges were made by the contractor over a 5-
                                               year period. The contractor credited the Department
                                               $107,230.37 as reimbursement for the overcharges. The U.S.
                                               Attorney’s Office for the Northern District of Ohio approved
                                               the reimbursement in lieu of prosecution. (I01OR014)


        Did you know?
                                                  Environmental Standards and
                                                  Stewardship
        The Environmental
        Management (EM) program is
                                               The Department is charged with the daunting task of
        responsible for cleaning up
        114 sites involved in                  protecting human health and the environment by cleaning up
        research, development,                 sites that supported nuclear weapons production activities. It
        production, and testing of             also must address the need to permanently dispose of
        nuclear weapons. Taken
                                               defense-related high-level radioactive wastes as well as spent
        together, these sites
        encompass an area of over 2
                                               nuclear fuel from civilian nuclear power plants. All of these
        million acres—equal to the             activities must be carried out consistent with established
        size of Rhode Island and               Federal, State, and local requirements and standards. These
        Delaware combined.                     environmental stewardship activities are some of the most
        Source: Executive Summary,             complex managerial and public policy issues facing this
        Top-to-Bottom Review of the            Nation. Although the Department’s goal has been to clean up
        EM Program,                            as many sites as possible by 2006, it may not be able to meet
        February 4, 2002,
        Energy.gov, Office of EM
                                               that date in as many cases as anticipated. The following OIG
        Home Page                              reports issued during the reporting period underscore the



                                                                                                          17
                        At Your Service

               Department’s difficulty in overcoming the challenge of
               operating this program in an efficient and cost-effective
               manner:

               Cost Estimate of the Department’s Strategy for
               Disposal of Plutonium

               In September 2000, the United States and the Russian
               Federation entered into an agreement stipulating that each
               country will irreversibly transform 34 metric tons of
               weapons-grade plutonium into forms which could not be
               used for weapons purposes. To meet the United States’
               commitment, the Department planned activities at its
               Savannah River Site to immobilize 8.4 metric tons of
     economy

               weapons-grade plutonium and to convert 25.6 metric tons
               into nuclear reactor fuel. The plan called for the design
               and construction of three major facilities at Savannah
               River: the Pit Disassembly and Conversion Facility; the
               Plutonium Immobilization Plant; and the Mixed Oxide
               Fuel Fabrication Facility. The Department’s total
               estimated life cycle cost for these facilities was about
               $6.1 billion, of which about $400 million has been
               expended.

               On January 23, 2002, the Secretary announced a
               significant change in the Department’s strategy. Under
               this new approach, the Department would meet its
               obligation under the agreement by converting 34 metric
               tons of plutonium into mixed oxide fuel for use in nuclear
               reactors. By choosing this method, the Department
               expects to save about $2 billion compared to its
               previously announced approach. At the time the
               announcement was made, the OIG had also concluded,
               based on an audit which began in August 2001, that the
               Department’s plan to immobilize some plutonium and
               convert the rest to reactor fuel was not the most cost-
               effective approach for disposing of surplus plutonium.

               The OIG conducted an audit estimating that the
               Department’s original approach, immobilizing 8.4 metric
               tons of plutonium and converting 25.6 metric tons to fuel,
               would cost about $6.3 billion. In contrast, the OIG found
               that converting all 34 metric tons to reactor fuel would
               cost about $4.6 billion and immobilizing all the material
               would cost about $4.3 billion. Department officials

18
                                   At Your Service

                          originally believed that converting all of the plutonium
                          into fuel was not technically feasible and that the Russian
                          Federation would reject a proposal to immobilize the
                          entire amount. The Department has since resolved
                          technical feasibility issues surrounding conversion.
                          The audit disclosed that the Department could save at
                          least $1.7 billion by converting all of the surplus
                          plutonium into fuel and avoiding the cost of plutonium
                          immobilization. (ER-L-02-01)

                          Audits Conducted at Ashtabula Environmental
                          Management Project Find Shortfalls in
                          Completion Schedule, Questionable Contract
                          Costs, and Failure in Meeting Departmental Cost
                          Reduction Expectations
Ashtabula Environmental
                          The RMI Titanium Company’s Earthline Technology
  Management Project
                          Division (RMI) is the Department 's environmental
                          restoration contractor at the AEMP in Ashtabula, Ohio. RMI
                          owns the Ashtabula property, formerly known as the RMI
                          Extrusion Plant, where the firm processed uranium for the
                          Department and its predecessor agencies. In March 1993, the
                          Department awarded a cost-reimbursable contract to RMI to
                          clean the extrusion plant and adjacent grounds to a level that
                          permits release of the site for unrestricted use.

                          The OIG conducted two audits of RMI at AEMP. The first
                          audit (IG-0541) was conducted to determine whether the
                          remediation of the AEMP is on schedule for completion by
                          March 31, 2003. The second audit (IG-0542) was conducted
                          to determine whether the AEMP’s soil washing project has
                          met the Department's performance and cost expectations.

                          IG audit IG-0541 found that, despite the planned 2003
                          completion date, the AEMP cleanup effort might not be
                          completed until 2012. This delay extends the 10-year
                          expected life of the project to 19 years, resulting in a likely
                          increase in project costs of over $60 million. Further, the
                          OIG identified about $4.9 million in questionable contract
                          costs that had been billed by RMI and reimbursed by the
                          Department.




                                                                                        19
                                              At Your Service

                                     The OIG made a series of recommendations designed to
                                     ensure that the Department develops and implements a fully
                                     funded plan to complete the remediation of the AEMP by
                                     2006 and that the contractor complies with the terms of its
                                     contract. Department management generally concurred with
                                     the majority of OIG recommendations but disagreed with the
                                     recommendation to request audits of costs incurred in prior
                                     years and the OIG’s estimate of unnecessary costs and fees
                                     that could be incurred by extending the project schedule to
                                     2012, stating that the estimate relied on an unvalidated and
                                     unapproved contractor proposed baseline.

                                     IG audit IG-0542 determined that despite investing over
                                     $6 million on a soil washing facility, the Department has not
                                     realized the expected performance improvements or
                                     reductions in site remediation costs. The OIG found that the
                                     soil treatment process had a number of known technical
                                     problems which were not resolved by RMI prior to this
                                     effort. As a result, the facility has provided little or no
                                     value-added benefit. Washing the remaining soil could cost
                                     the Department between $6.1 million and $13.3 million
                                     more than shipping the soil offsite for disposal. The OIG
                                     concluded that the cost differential and remaining technical
                                     problems associated with soil washing at RMI suggest that
                                     this process be terminated.

                                     The OIG recommended that the Manager, Ohio Field Office:
                                     (1) discontinue funding for soil washing at the AEMP; and
                                     (2) direct RMI to follow the original plan to ship
                                     contaminated soil offsite. Management agreed with
                                     recommendation No. 1, but has deferred action on
                                     recommendation No. 2 pending completion of an internal
                                     evaluation to establish the most economical method for
                                     completing the entire cleanup and closure of the AEMP by
                                     FY 2006. (IG-0541 and IG-0542)
     Did you know?
                                        Research and Development Investment
     The FY 2003 budget requests
     record levels for Federal R&D
     ($118 billion, an 8 percent     Better R&D Investment Criteria is one of the President’s
     increase)                       Program Initiatives for FY 2002. Science and technology are
                                     critically important to keeping the Nation’s economy
     Source: Analytical
     Perspective, Budget of the
                                     competitive and for addressing challenges we face in health
     United States Government,       care, defense, energy production and use, anti-terrorism, and
     FY 2003                         the environment. As such, every Federal research and
                                     development dollar must be invested as effectively as

20
                     At Your Service

             possible. During FY 2001, the Department spent about $7.7
             billion on a broad range of research activities, representing
             more than 40 percent of its budget. This past year, the OIG
             focused its attention on examining whether the Department
             was managing R&D activities efficiently and ensuring that
             the results of research it funds were being properly
             disseminated.

             Failure to Conduct Peer Reviews of the Passive
             Magnetic Resonance Anomaly Mapping
             Technology Results in Unnecessary Costs to the
             Department in Excess of $400,000
efficiency

             The Department’s Office of Environmental Management
             (EM), Office of Science and Technology (OST), manages
             and directs a national program that provides the scientific
             foundation, new approaches, and new technologies that are
             intended to significantly reduce the risk, cost, and schedule
             for completing the Department’s environmental cleanup
             mission. OST’s policy is to perform peer reviews to evaluate
             the technical merit and plausibility of new technologies
             before investing in field tests.

             In January 2000, several EM field sites began conducting
             tests of “Passive Magnetic Resonance Anomaly
             Mapping” (PMRAM) which was supposed to map
             underground location of groundwater, faults, fractures, buried
             objects, and chemicals by sensing changes in magnetic fields.
             The basic premise behind this device is that it attempts to
             combine an electronic system and a human operator into a
             single bio-sensory unit.

             The OIG conducted an audit to determine whether the OST
             evaluated the technical merit and plausibility of PMRAM
             technology before field tests began. The audit found that the
             Department spent over $400,000 to field test PMRAM prior
             to any OST evaluation of the merits and plausibility of the
             technology. In fact, OST was not even aware that field tests
             of the PMRAM technology had been conducted until FY
             2001. In FY 2001, OST funding was requested to continue
             testing PMRAM at other EM field locations. Once funding
             was requested, OST performed a peer review of the PMRAM




                                                                        21
                                               At Your Service

                                      technology. The peer review concluded that the technology:
                                      appeared to be implausible; did not allow for a scientifically-
                                      based evaluation; provided no useful information during the
                                      three field demonstrations; and appeared inadequate as a site-
                                      characterization tool. The OIG concluded that, had a peer
                                      review been performed prior to testing, the Department could
                                      have avoided spending over $400,000 on this technology.

                                      The OIG made several recommendations designed to ensure
                                      compliance with the Department’s philosophy of evaluating
                                      the viability of new technologies before they are implemented
                                      in costly field tests. Department management agreed with the
                                      OIG recommendations and agreed to implement corrective
                                      actions. Further, management stated that field testing of the
                                      PMRAM technology has been discontinued. (IG-0539)

     Did you know?                    Research Results Need to be Better Disseminated
     The Department operates a
     suite of 27 scientific user      A review of the Oakland Operations Office (Oakland) grants
     facilities—such as x-ray light   awarded in FYs 1998 through 2000 showed that the
     sources, fusion experiments,     Department did not disseminate an estimated 63 percent of
     particle accelerators and
                                      the technical reports generated by the science and technology
     colliders. Over 18,000
     scientists from universities,    grants administered by Oakland. The Department awards
     industry and Government          science and technology grants to advance scientific research.
     agencies use these facilities    Grantees are required to document the results of their work in
     every year.
                                      technical reports. Although the Department received most of
     Source: Analytical               the technical reports specified in its grants, many of the
     Perspectives, Budget of the      results were not sent to the Office of Science and Technical
     United States Government,        Information (OSTI) for dissemination to the scientific
     FY 2003
                                      community and the public. Other recent OIG audits disclosed
                                      similar problems with collecting grantee deliverables and
                                      forwarding research results. Grant results can be of
                                      significant benefit to the scientific community and public in
                                      promoting scientific advancement.

                                      The OIG recommended that Oakland require grantees to send
                                      all technical reports to the Oakland contract specialists, track
                                      the collection of technical reports, and ensure that technical
                                      reports collected are sent to OSTI. Department management
                                      concurred with the recommendations but disagreed with the
                                      OIG’s data, indicating that it inaccurately represented the
                                      number of reports not forwarded to OSTI. (WR-B-02-02)




22
                         At Your Service

                Sandia National Laboratories Violates
                Department Policy on Trade Secret Licenses
                The OIG initiated an inspection into the facts and
                circumstances surrounding the issuance of a trade secret
                license in June 2000 by Sandia National Laboratories
                (Sandia) to a private company. This inspection was initiated
                after the OIG received allegations that Sandia issued a trade
                secret license in violation of Department policy and the
                requirements of its management and operating contract.
effectiveness
                The inspection determined that since 1995, Sandia
                improperly issued trade secret licenses to 11 private
                companies. Sandia licensed information and data owned by
                the Department without the Department’s knowledge or
                approval. In doing so, Sandia: (1) disregarded Department
                policy prohibiting the licensing of trade secrets; (2)
                disregarded the Department’s statutory mandate to widely
                disseminate the results of research and development; and (3)
                acted in a manner not authorized by its management and
                operating contract with the Department.

                Furthermore, Sandia’s trade secret licensing activities could
                have jeopardized national security by releasing technologies
                without review for potential weapons applications. These
                activities also potentially exposed the Department to possible
                liability in the event that it disclosed or disseminated
                information that was the subject of the trade secret.
                Additionally, these activities may have resulted in Sandia’s
                inappropriate collection of $617,422 in royalties on 8 of the
                11 trade secret licenses issued. Further, the costs incurred in
                connection with Sandia’s unauthorized trade secret licensing
                may have been unallowable.

                The OIG recommended a series of actions designed to correct
                Sandia’s trade secret licensing violations. Department
                management concurred with the recommendations and is in
                the process of initiating appropriate corrective actions.
                (IG-0547)

                   Contract Administration
                The Department’s programs are largely accomplished
                through contractors that operate and manage a broad range of
                scientific and production activities and facilities for the


                                                                            23
                                                    At Your Service

                                           Department. These contracts represent the largest share of
                                           the Department’s annual budget. Contract administration,
                                           which includes project management, has been a longstanding
                                           challenge. The Department continues to experience
                                           difficulties in the management of some of its major projects.
                                           Additionally, since the early 1990’s, the OIG has issued a
                                           series of reports critical of the planning, justification, and
                                           management of major projects. Most recently, OIG reviews
                                           have found the following:

                                           Spallation Neutron Source Project Not on Track
                                           to Meet Approved Project Requirements
                                           When completed, the Spallation Neutron Source (SNS) will
                                           be the world’s foremost neutron-scattering facility. It will be
                                           an important scientific tool for basic research in materials
                                           science, life sciences, chemistry, solid state and nuclear
                                           physics, earth and environmental sciences, and engineering
                                           sciences. Approximately 1,000 to 2,000 users are expected to
                                           conduct research at the SNS facility each year. The facility is
              Neutron Spalled              being built in Oak Ridge, Tennessee, as a partnership among
                                           six of the Department’s national laboratories. The $1.4
                                           billion project, currently under construction, is scheduled for
                                           completion in June 2006. The OIG conducted an audit to
                                           determine whether the SNS Project was within technical
                                           scope, cost, and schedule.

                                           The OIG determined that the SNS Project’s technical scope
                                           was reduced to allow the cost and schedule components to be
                                           met. Contrary to original commitments, in June 2006, the
                                           anticipated completion date, the SNS Project will not have
                                           instruments to address all of the initially planned areas of
                                           science, provide complete user facilities, and possess critical
                                           spare parts and equipment.

                                           The OIG recommended that the Manager, Oak Ridge
     Conceptual Layout of the Spallation   Operations Office: (1) adjust the baseline for the SNS Project
             Neutron Source                to reflect the total project cost for providing (a) state-of-the-
                                           art instruments to cover all of the initially planned areas of
                                           science, (b) completed user facilities, (c) spare parts and
                                           equipment, and (d) facility enhancements; (2) use
                                           contingency funds only for unforeseen and unpredictable
                                           conditions or uncertainties, and not to enhance project
                                           capabilities or to adjust for known errors in cost estimates;


24
                                              At Your Service

                                      (3) maintain the contingency fund at an adequate level
                                      without jeopardizing the project’s technical requirements; and
                                      (4) ensure that the project delivers approved project
                                      requirements on schedule as well as within cost. Department
                                      management disagreed with the basis for the report and the
                                      report’s conclusions. Additionally, management did not
                                      concur with the first recommendation and concurred
                                      with the other three recommendations, stating that the
                                      recommendations merely required following accepted project
                                      management practices, to which they believed they had
                                      already adhered. (IG-0532)

                                      The Relativistic Heavy Ion Collider’s
                                      Performance and Cost Expectations Were Not
                                      Met at Project Completion
                                      The Relativistic Heavy Ion Collider (RHIC), located at
                                      Brookhaven National Laboratory, is the world’s newest and
                                      largest particle accelerator for nuclear physics research.
                                      RHIC was constructed between 1991 and 1999 at a reported
                                      cost of $617 million and is designed to enhance scientific
                                      exploration by advancing our understanding of the most basic
                                      constituents that make up the matter in our universe. In
                                      August 1999, the Office of Science determined that the RHIC
Star Detector, RHIC, Brookhaven       project was completed within budget. The RHIC was then
                                      designated an operating facility. The OIG conducted an audit
                                      to determine whether the RHIC project met performance and
                                      cost expectations when it was designated as an operating
                                      facility.

                                      The OIG determined that when the RHIC project was
    Did you know?
                                      declared complete, beam collisions, which were expected for
    The RHIC uses enough helium       project completion, had not taken place, and the facility was
    to fill all the balloons in the   not ready to begin operations with beam-collision
    Macy’s Thanksgiving Day
                                      experiments. It was also determined that the cost of the
    Parades for the next 100
    years.                            project exceeded its $617 million budget by about $32
                                      million. Consequently, in August 1999, the RHIC was not an
    Source: Fascinating facts,
                                      operational facility and the Department prematurely reported
    RHIC website.
                                      the project's completion to Congress. In addition, other
                                      Brookhaven projects and activities had to absorb about $20
                                      million in overhead that should have been charged to the
                                      RHIC project.




                                                                                                 25
                        At Your Service

               The OIG recommended, for current and future Department
               projects, that: (1) the Acting Director, Office of Science
               require that projects meet established performance
               expectations prior to designating facilities as completed and
               ready for operations; and (2) the Chicago Operations Office
               and the Brookhaven Area Office ensure that all applicable
               overhead and other project specific costs are included in total
               project costs. The Office of Science agreed with the
               recommendations, but did not agree with the report’s
               conclusions. (IG-0543)

               Audit Recommends a Series of Actions Needed to
               Strengthen the Department’s Fixed-Price
               Contracting Practices
     economy

               The OIG conducted an audit to determine if the cost savings
               anticipated from the use of fixed-price contracts for
               environmental cleanup activities will be realized.

               The audit disclosed that projected savings associated with 9
               of the 11 contracts reviewed were not likely to be fully
               realized. The OIG found that some savings estimates were
               unsupported; some were based on invalid cost comparisons;
               and some estimates were invalid because increases in actual
               costs had occurred or were likely.

               To improve the application of fixed-price contracting, the
               OIG recommended that the Assistant Secretary for EM,
               working in concert with the Director of the Contract Reform
               and Privatization Office, strengthen the processes by which
               decisions are made to use fixed-price contracts and
               implement a process to assess the performance of those
               contracts. Department management disagreed with some of
               the OIG audit conclusions, but generally concurred with the
               finding and agreed to take corrective action. (CR-B-02-01)

               Interagency Agreements Necessary to Recover
               Mission-Specific Costs of the Advanced
               Radioisotope Power Systems Program
               The Department’s Advanced Radioisotope Power Systems
               (ARPS) program maintains the sole national capability to
               produce radioisotope power systems for the National


26
                     At Your Service

             Aeronautics and Space Administration (NASA) and the
             Department of Defense (DOD). The Department’s policy is
             to pay only the cost of maintaining the capability to produce
             the power systems and to recover mission-specific
             development and hardware costs from NASA and DOD. In
             FY 2001, ARPS program funding included $31.8 million for
             the Department, $20 million from NASA, and $4.7 million
             from DOD. In its FY 2000 Committee report, the House
             Appropriations Committee directed the Department to
             negotiate new agreements with NASA and to seek additional
             funding from NASA and DOD for the ARPS program.
             The OIG performed an audit to determine whether the
             Department had established interagency agreements with
efficiency

             NASA and DOD to ensure that mission-specific costs are
             fully recovered.

             The audit found that the Department had not established
             interagency agreements with NASA and DOD to recover
             mission-specific costs. The Department chose to fund all
             safety-related ARPS activities even when these activities
             were directly related to and supported NASA and DOD
             missions. This policy was in contrast to a 1999 Streamlining
             Plan provided to Congress in which the Department stated
             that NASA and DOD would fund all mission-specific
             development and hardware costs. Unless the Department
             brings its practices in line with the Streamlining Plan
             provided to Congress, by 2003 the Department will have
             incurred as much as $15.5 million for mission-specific,
             safety-related costs that should have been recovered from
             NASA and DOD.

             The OIG recommended that the Director, Office of Nuclear
             Energy, Science and Technology, in coordination with the
             Office of Management, Budget and Evaluation: (1) establish
             interagency agreements with NASA and DOD for ongoing
             ARPS projects, requiring user agencies to pay all mission-
             specific development and hardware costs; and (2) develop
             and implement procedures to ensure interagency agreements
             are established consistent with the Department’s policy prior
             to production of future ARPS projects. Department
             management agreed with the OIG recommendations in part.
             It did not agree with the OIG conclusions that safety-related
             activities, even if mission-specific, should be funded by the
             user agencies. Management contends that the capability to



                                                                        27
                                                At Your Service

                                       perform the required safety analysis and testing is a unique
                                       expertise that cannot be turned on and off as specific
                                       missions, program and facility infrastructure come along.
                                       (IG-0540)

                                       Improvements Needed in the Department’s
                                       Implementation of Value Engineering
     Did you know?

     Value Engineering originated in   OMB Circular A-131 requires Federal agencies to use Value
     the industrial community, and     Engineering, where appropriate, to reduce program and
     has spread to the Federal
                                       acquisition costs. The Circular also requires Inspectors
     Government due to its
     potential for yielding a large    General to evaluate how well the agencies have done in their
     return on investment. Its         efforts to implement Value Engineering. In July 1998, the
     most extensive use has been       OIG reported the results of its audit of the Department’s
     in Federal acquisition            Value Engineering program in OIG audit report HQ-B-98-01.
     programs.
                                       That review found various deficiencies in the Department’s
     Source: Office of                 Value Engineering program. Management concurred with
     Management and Budget             the audit recommendations and identified actions that would
     Circular A-131
                                       be taken to address the OIG’s findings and recommendations.
                                       During the current reporting period, the OIG conducted a
                                       follow-on inspection to determine if the Department has
                                       taken appropriate action to implement an effective Value
                                       Engineering program.

                                       The OIG concluded that the Department has not fully
                                       developed and implemented an effective Value Engineering
                                       program as required by OMB Circular A-131. Furthermore,
                                       the Department has not taken all the actions it agreed to
                                       implement in response to the recommendations made by the
                                       OIG in the July 1998 report on this subject. The inspection
                                       did identify that to varying degrees some elements of the
                                       NNSA, the Office of Science, and the Office of
                                       Environmental Management did employ the use of Value
                                       Engineering to increase the efficiency and performance of
                                       their programs. Even in these organizations, however, Value
                                       Engineering methodologies have not been applied
                                       consistently and, for the most part, have only been applied to
                                       construction projects.

                                       The OIG recommended a series of actions designed to
                                       improve the Department’s implementation of a robust and
                                       aggressive Value Engineering program. Department
                                       management agreed with the OIG recommendations and



28
                                         At Your Service

                                identified corrective actions that, if fully implemented, would
                                be responsive to the recommendations. (IG-0536)

                                   Infrastructure and Asset Management
                                The Department's physical infrastructure includes more than
Did you know?                   50 major facilities in 35 States. These facilities include
At the beginning of
                                structures ranging from temporary trailer-type buildings, to
FY 2001, the Federal            office space, to state-of-the-art nuclear reactors and
Government reported $185        laboratories. It has about 125 million square feet of building
billion in inventory and        space, 4,000 miles of roads, over 100 miles of railroad track,
related property.
                                and 1.1 million feet of sidewalks. For several years, the OIG
Source: Executive Guide,        has reported that the condition of the Department’s
Best Practices in Achieving     infrastructure is deteriorating at an alarming pace and may be
Consistent, Accurate Physical
Counts of Inventory and
                                inadequate in the future to meet mission requirements. OIG
Related Property, General       reviews have also noted problems in asset management.
Accounting Office (GAO-02-      While the Department has taken steps to improve its
447G), March 2002               management of infrastructure and asset inventories, such as
                                seeking additional funding for infrastructure purposes,
                                drafting management policy for real property, and
                                demonstrating new technologies to identify and track the
                                locations of assets, more needs to be done. Examples of
                                recent asset management reviews include the following:

                                Accounting and Tracking Inaccuracies of the
                                Department’s Nuclear Materials Loaned or
                                Leased to Domestic Licensees
                                Since the 1950’s, pursuant to Chapter 4 of the Atomic Energy
                                Act, the Department and its predecessor agencies have loaned
                                and/or leased certain nuclear materials to other Government
                                agencies, academic institutions, and commercial facilities.
                                These materials, including plutonium and uranium, were to
                                be used for research, medical purposes, or projects consistent
                                with the Department’s mission. As of September 30, 2000,
                                the Department had nuclear materials at over 300 non-
                                Department domestic facilities. The Department and NRC
                                share accounting and tracking responsibilities for such
                                nuclear materials. The NMMSS is an electronic database
                                used by these organizations to track such materials. The OIG
                                conducted an audit to determine whether the Department was
                                able to account for nuclear materials provided to domestic
                                licensees.



                                                                                            29
                                             At Your Service

                                    The audit determined that the Department could not fully
                                    account for nuclear materials loaned or leased to domestic
                                    licensees. According to NMMSS records, substantial
                                    amounts of nuclear materials were reported to be located at
                                    two licensed facilities that no longer existed and several
                                    licensee facilities carried balances that were not logical and
                                    could not be adequately explained or reconciled. Also,
                                    records were incomplete in that they did not contain
                                    information on all Government-owned nuclear materials
                                    provided to licensees. These problems occurred and persisted
                                    because the Department did not provide adequate oversight of
                                    the system, nor was there effective coordination with the
                                    NRC on these matters.

                                    As a result, the OIG set forth a series of recommendations
                                    designed to ensure that the Department: (1) undertakes a
                                    complete confirmation of Government-owned nuclear
                                    materials held by domestic licensees; (2) enhances its
                                    oversight and control of nuclear material placed with non-
                                    Department domestic sources; and (3) improves coordination
                                    with the NRC. Department management agreed with the OIG
                                    recommendations and has developed a corrective action plan.
                                    (IG-0529)

                                    Improper Management of Government-Owned
                                    Personal Property at the Ashtabula
                                    Environmental Management Project

                                    The OIG conducted an inspection to review the management
                                    of Government-owned personal property at the Department’s
                                    Ashtabula Environmental Management Project (Ashtabula
                                    Site) in Ashtabula, Ohio. Earthline Technologies (Earthline)
                                    is the Department’s environmental restoration contractor at
                                    Ashtabula.

                                    The OIG concluded that the Ashtabula Site did not manage
     Stored Pilot Plant Equipment   Government-owned personal property in accordance with
                                    Department and other Federal property management
                                    requirements. Specifically, Department officials allowed
                                    Earthline to stockpile Government-owned personal property
                                    without a valid Department need or mission requirement.
                                    Additionally, it was observed that Earthline’s marketing




30
                                  At Your Service

                         brochure and its Department funded web-site advertised some
                         of the Government-owned personal property for the
                         commercial disposal of potentially contaminated waste. This
                         work was outside the scope of the Department’s cleanup
                         contract with Earthline.

                         The OIG inspection focused specifically on seven pieces of
                         Government-owned personal property chosen to illustrate
                         Ashtabula Site property management practices. This
                         equipment had an original cost to the Department of over
                         $2.6 million. Once this equipment was transferred to
                         Earthline, the Department spent over $1.8 million for
                         equipment upgrades. The Department also spent over
                         $250,000 to transport and store the equipment at Ashtabula.
                         Much of this equipment sat idle once it was obtained and
                         retrofitted by Earthline.

                         The OIG recommended that the Manager, Ohio Field Office:
The Portable Ash Block
   Processing Plant      (1) conduct an evaluation to determine what personal
                         property is required for mission accomplishment at Ashtabula
                         and have those items not required processed through the
                         Department’s excess property system; and (2) direct the
                         Department’s Ashtabula Project Director to: (a) review all
                         requests for personal property and ensure that the contractor
                         has a valid requirement before approval and (b) require
                         Earthline to perform life cycle cost analysis when costs are
                         significant. The Manager, Ohio Field Office, agreed with the
                         OIG’s recommendations. (IG-0530)

                         Inspection Identifies Weakness in the
                         Management of Excess Personal Property at
                         Lawrence Livermore National Laboratory

                         The Department’s Lawrence Livermore National Laboratory
                         (Livermore), which is operated under contract with the
                         University of California, has a personal property inventory of
                         over 53,500 line items with an acquisition value of over $823
                         million. It generates thousands of excess personal property
                         items each year. For example, in FY 2000, Livermore
                         excessed over 12,000 items of personal property with an
                         acquisition value of over $59 million. These items were
                         disposed of through reutilization, donations, and public sales.
                         An OIG inspection evaluated the economy and efficiency of
                         Livermore’s management of excess personal property.


                                                                                     31
                              At Your Service

                     The OIG determined that Livermore complied with the
                     Department’s Property Management Regulations (DOE-
                     PMR) in the area of property storage and screening of
                     personal property suspected of contamination. The OIG
                     further determined that, contrary to DOE-PMR, Livermore
                     program officials did not perform high risk reviews of
                     personal property items prior to reutilization and disposal and
                     have not been responsible for placement of certification tags
                     indicating risk or need for special handling of property. It
                     was also found that Livermore failed to record all
     effectiveness
                     “reportable” excess property in the Department's Energy
                     Asset Disposal System (EADS). As a result, Department
                     organizations as well as Federal and State agencies with valid
                     requirements for the items were not always aware that the
                     items were available. Additionally, in some cases, Livermore
                     sold personal property items in EADS before the reutilization
                     screening period had expired, thereby denying the
                     Department as well as Federal and State agencies the
                     opportunity to acquire property.

                     The OIG recommended that the Manager, Oakland
                     Operations Office, direct Livermore to: (1) revise the current
                     procedures for identifying high risk personal property to
                     comply with the provisions of the DOE-PMR as it relates to
                     the responsibilities of program officials; (2) ensure that the
                     Livermore high risk property procedures are submitted to the
                     Oakland Operations Office for approval; (3) ensure that all
                     “reportable” excess personal property items are recorded in
                     the EADS for Departmentwide reutilization screening; and
                     (4) ensure that excess personal property items are not sold
                     prior to the expiration of the applicable screening period as
                     established by the DOE-PMR. Department management
                     agreed with all OIG recommendations. (INS-O-02-01)




32
                                                                           At Your Service



                                                                   I
Other Significant Accomplishments

                                                                          n addition to the accomplishments under the
                                                                   management challenge areas, the OIG completed other
                                                                   noteworthy work as follows:

                                    Did you know?
                                                                   Congressional Responses
                                    The False Claims Act (Act)     During the reporting period, the OIG received 13 requests for
                                    prohibits any person from
                                                                   information from Congress, provided information in 21
                                    “knowingly” presenting “a
                                    false or fraudulent claim
                                                                   instances to Congress, and briefed Committee staff on 3
                                    for payment or approval”       occasions.
                                    to the Federal Government.
                                    The Act authorizes
                                    individual citizens to bring   Qui Tams
                                    private suits, referred to
                                    as Qui Tam actions, to         Since 1996, the OIG has been instrumental in working with
                                    enforce the Act on behalf      the Department of Justice (DOJ) in Qui Tam cases in which it
                                    of the Government.
                                                                   is alleged that a Department contractor or grantee has
                                    Source: False Claims Act       submitted false claims. The OIG is currently working with
                                                                   the DOJ on 27 Qui Tam lawsuits involving alleged fraud
                                                                   against the Government in the amount of approximately
                                                                   $187 million.

                                                                   Administrative Safeguards

                                                                   The Department’s Purchase Card Programs - Lessons
                                                                   Learned

                                                                   Along with many agencies of the Federal Government and
                                                                   numerous private sector entities, the Department has adopted
                                                                   the purchase card concept as a method to simplify its small
                                                                   purchase procedures and improve cash management. Since
                                                                   1998, the OIG has conducted 20 reviews, including audits,
                                                                   inspections, and investigations, involving instances where
                                                                   Department employees or contractors have allegedly misused
                                                                   Government purchase cards. During the course of these
                                                                   reviews, the OIG identified a number of complex schemes
                                                                   devised to facilitate individual misuse of Government




                                                                                                                             33
                        At Your Service

               purchase cards to acquire goods and services for personal use.
               The OIG issued a letter report summarizing its findings to
               date and to present a series of “lessons learned” which can be
               used to improve the integrity and performance of the
               Department’s purchase card program.

               The OIG identified four key lessons learned. The lessons
               include the need to: (1) conduct independent receipt and
               verification of goods and services; (2) implement policies and
               procedures for identifying unallowable and non-reimbursable
               costs; (3) adhere to established policies and procedures; and
               (4) implement purchase card issuance controls. Management
               agreed with the report and indicated that it is their intent to
               ensure that the Department and its contractors have adequate
     economy

               purchase card controls in place to provide reasonable
               assurance against Government purchase card abuse or
               misuse. Management also stated that the Department has
               initiated and will continue to implement very aggressive
               measures to combat purchase card abuse and misuse.
               (I01OP001)

               Theft by Department Contractor Employee of
               Approximately $138,000 Through Use of Government
               Credit Card

               An OIG investigation determined that a former Department
               contractor employee at the Idaho National Engineering and
               Environmental Laboratory misused a Government-sponsored
               credit card to obtain over $138,000 worth of personal funds
               and property. The employee was found to have used the
               Government credit card to make purchases from a personal
               business. The employee pleaded guilty to one count of
               violating Title 18, USC § 641 (Theft of Government
               Property). Sentencing is pending.

               During the course of the investigation, the subject’s
               employment was terminated and some of the improperly
               acquired property was seized. Disciplinary action was also
               taken against two of the employee’s managers. Both
               managers received a written reprimand and one was
               suspended without pay for 13 business days for failing to
               properly supervise the employee’s use of the Government
               purchase card. (I01IF003)



34
                      At Your Service

             Theft by Department Subcontractor Employees of
             Approximately $80,000 Through Use of Government
             Credit Card

             An OIG joint investigation with the Federal Bureau of
             Investigation and the U.S. Attorney’s Office for the District
             of Idaho determined that two former Department
             subcontractor employees at the Idaho National Engineering
             and Environmental Laboratory misused a Government
             sponsored credit card to obtain over $80,000 worth of
             personal property. Both subcontractor employees pleaded
             guilty to one count of violating Title 18, U.S.C. § 641 (Theft
             of Government Property). One employee was sentenced to
efficiency

             4 months home detention and 2 years probation. The court
             also ordered that this individual pay $6,080 in court ordered
             restitution, a $1,000 fine, and a $100 special assessment fee.
             The other subcontractor employee was sentenced to 6 months
             incarceration followed by 6 months home detention and 3
             years probation. The court also ordered that this individual
             pay restitution of $31,304, a fine of $2,000, and a $100
             special assessment fee. During the course of the
             investigation, both employees were terminated and the
             improperly acquired property was seized. (I00IF001)

             False Per Diem Claims by Subcontractors Result in a $2.2
             Million Civil Settlement

             An OIG investigation, in conjunction with the U.S.
             Department of Justice and the U.S. Attorney’s Office for the
             District of South Carolina, culminated in a $2.2 million Civil
             Settlement Agreement between the Government and an
             engineering and architectural services subcontractor at the
             Department’s Savannah River Site (SRS), Aiken, South
             Carolina. The Department directly received $1.1 million of
             the $2.2 million stipulated in the agreement.

             This settlement follows a $2.5 million civil settlement that
             occurred during a previous reporting period with another
             subcontractor. In that agreement the Department directly
             received $1.2 million of the $2.5 million.

             The investigation involved allegations that from July 1991
             through November 1993, while performing a subcontract at
             the SRS, subcontractor employees improperly received over a



                                                                            35
                             At Your Service

                     million dollars in Long-Term Temporary Assignment per
                     diem payments. The investigation revealed that
                     subcontractor employees falsely certified that the residences
                     of family members and friends and rental/vacation properties
                     were their permanent residences. (I96SR028)

                     Contractor Repays Department for Unallowable
                     Travel Costs

                     An OIG investigation determined that a contractor at the
     effectiveness
                     Department’s Hanford Site improperly paid extended travel
                     and per diem costs to one of its subcontractors. The
                     investigation did not identify any violations of criminal or
                     civil Federal statutes; however, over $200,000 in potential
                     questioned costs were identified.

                     The OIG issued an ARM recommending that Management
                     review the investigative findings to determine whether the
                     questioned costs were allowable. As a result, management
                     determined that the questioned costs identified in the ARM
                     were unallowable and the contractor credited the Department
                     $201,618. (I00RL001)

                     Questionable Training Authorized for Department
                     Employees

                     The OIG reviewed an allegation that one Department
                     employee had been authorized to take golf lessons and three
                     employees had been authorized to take pilot training at
                     taxpayer expense. The review substantiated these allegations
                     and confirmed violations of Federal regulations and laws
                     associated with Government training. In addition, the review
                     identified questionable conduct by the officials involved in
                     authorizing and paying for the training and failure by the site
                     manager to take timely and decisive action after concerns
                     about the appropriateness of the training were raised.

                     The OIG recommended that Department management:
                     (1) consider the full range of options for disciplinary action
                     against the involved Department employees; (2) review all
                     training at the site to ensure compliance with applicable laws,
                     regulations, and Department directives; (3) reevaluate
                     transitional training programs and procedures




36
                   At Your Service

          Departmentwide to ensure that such programs comply with
          all applicable laws, regulations, and Department directives;
          and (4) if appropriate, issue supplemental Departmentwide
          policy on this topic. (S02IS020)

          Local Union Reimburses the Government $130,000 for
          Improper Training Fund Claims

          A joint OIG investigation with the Federal Bureau of
          Investigation determined that a local labor union in the State
          of Washington improperly billed its international office for
          Department grant funds earmarked for hazardous worker
          protection training. Over a 4-year period, the local union
          submitted invoices and received payment for instructors’
economy

          labor hours associated with this training. These costs were
          also paid by the Department to the instructors’ employer, a
          prime contractor at the Hanford Site. Under the terms of a
          settlement agreement with the U.S. Attorney’s Office for the
          Eastern District of Washington, the local union and its former
          business manager agreed to pay the Government $130,000 to
          resolve potential civil liabilities stemming from violations of
          the Civil False Claims Act. (I97RL005)

          Subcontractor Employee Sentenced for Submitting False
          Claims

          As previously reported, an OIG investigation determined that
          the owner of a former subcontractor to the West Valley
          Demonstration Project, West Valley, New York, submitted
          false claims for a leased vehicle and temporary lodging for
          himself and a consultant. The investigation also determined
          that the subcontractor submitted false claims related to
          compensation and expenses for the consultant. The false
          claims resulted in a loss to the Department of approximately
          $210,000. The owner pleaded guilty to one count violation of
          Title 18, U.S.C., Section 287 (False Claims) in July 2001.

          During the current reporting period, the U.S. District Court,
          Buffalo, New York, sentenced the subcontractor owner to 4
          years probation. The court also directed him to pay $26,458
          in restitution to the Department directly, a $3,500 fine, and a
          $100 special assessment fee. (I99CN001)




                                                                         37
                           At Your Service

                  Department Grant Recipient Pays the Government $25,000

                  The OIG conducted a joint investigation with the National
                  Science Foundation and the NASA which determined that a
                  Small Business Innovative Research (SBIR) grant recipient
                  knowingly made numerous false statements and certifications
                  in an attempt to receive multiple SBIR awards. The
                  investigation disclosed that the grant recipient obtained
                  funding for duplicate research projects by submitting similar
                  proposals to several Government agencies.

                  The U.S. Attorney’s Office for the Northern District of
                  California accepted this case for civil prosecution. Under the
     efficiency

                  terms of a Civil Settlement Agreement, the grant recipient
                  was ordered to pay the Federal Government $25,000 for
                  violations of the Civil False Claims Act, Title 31 U.S.C.,
                  Sections 3729-3733. (I98HQ008)

                  Employee of Non-Profit Organization Convicted for
                  Embezzling Community Development Funds Under
                  Financial Assistance Awards with the Department

                  In a previous Semiannual Report, the OIG reported the results
                  of an investigation into allegations that managers of a non-
                  profit corporation, operating under grants from the
                  Department, devised a plan to set up fictitious shell
                  companies to fraudulently bill charges against the grants.
                  The corporation’s General Manager previously pleaded guilty
                  to one count of Title 18, U.S.C., Section 666 (Theft from a
                  Program Receiving Federal Funds).

                  During this reporting period, the General Manager was
                  sentenced to 6 months home detention and 3 years probation.
                  The court also ordered that the subject pay $15,583 in
                  restitution to the Department and a $100 special assessment
                  fee. (I96SR003)

                  Los Alamos National Laboratory Contractor Employee
                  Submits False Travel and Work Hour Claims

                  An OIG investigation determined that a contractor employee
                  at the Los Alamos National Laboratory (Los Alamos)
                  submitted over $25,000 in false claims pertaining to personal




38
                         At Your Service

                travel expenses and work hours. Los Alamos subsequently
                terminated the individual’s employment.

                The U.S. Attorney’s Office for the District of New Mexico
                accepted the case for civil prosecution. Under the terms of a
                Civil Settlement Agreement, the former contractor employee
                will pay the United States $89,000, including triple damages
                and penalties. Approximately $25,140 of the settlement
                amount will be forwarded directly to the Department.
                (I99AL003)
effectiveness
                Intelligence Activities
                The OIG issued two quarterly intelligence reports pursuant to
                Executive Order 12863, “President’s Foreign Intelligence
                Advisory Board.” The Order requires the Inspectors General
                of the Intelligence Community to report to the Intelligence
                Oversight Board concerning intelligence activities that
                Inspectors General have reason to believe may be unlawful or
                contrary to Executive order or Presidential directive.

                Legislative and Regulatory Review
                The OIG coordinated and reviewed 11 legislative and
                regulatory items, as required by the Inspector General Act of
                1978 (Act). The Act requires the OIG to review existing and
                proposed legislation and regulations relating to Department
                programs and operations and to comment on the impact
                which they may have on economical and efficient operations
                of the Department.

                Hotline System
                The OIG operates a Hotline System to facilitate the reporting
                of allegations involving the programs and activities under the
                auspices of the Department. During the reporting period, the
                Hotline processed 466 complaints.

                Management Referral System
                The OIG operates an extensive Management Referral System.
                Under this system, selected matters received through the OIG
                Hotline or other sources are referred to the appropriate



                                                                           39
                        At Your Service

               Department manager or other Government agency for review
               and appropriate action. Complaints referred may include
               such matters as time and attendance abuse, misuse of
               Government vehicles and equipment, violations of
               established policy, and standards of conduct violations.

               The OIG referred 130 complaints to Department management
               and other Government agencies during this reporting period
               and requested Department management to respond
               concerning the actions taken on 29 of these complaints.

               OIG Reorganization
               Recently, both the Department and the OIG have undergone
     economy

               major organizational changes. The Department’s
               responsibilities and mission have shifted and the focus is now
               on meeting critical requirements in national security, energy,
               science, and environmental quality. Recognizing a need to
               better serve the Department, the OIG realigned its audit and
               inspection Headquarters and field offices to ensure that the
               OIG’s work provides the most comprehensive coverage over
               all Department organizations, programs, and activities.

               Revised Strategic Planning Effort
               During this reporting period, the OIG began revising its
               Strategic Plan to cover FYs 2002 to 2007 and to bring the
               OIG’s goals, objectives, and strategies more in line with each
               of the President’s Management Initiatives, the Secretary’s
               priorities, and the most serious challenges facing the
               Department. At the same time, the OIG also wanted to make
               the Plan more readable and user friendly.




40
                                                               At Your Service

                                                     AUDIT REPORTS ISSUED
                                                  October 1, 2001, to March 31, 2002

                    REPORT                                                          DATE OF                        QUESTIONED
                    NUMBER                             TITLE                         ISSUE        SAVINGS            COSTS

                  IG-0528          Stockpile Surveillance Testing                  10-05-01
                  IG-0529          Accounting for Government-Owned                 10-26-01
                                   Nuclear Materials Provided to
                                   Non-Department Domestic Facilities
                  IG-0532          Progress of the Spallation Neutron              11-19-01
                                   Source Project
                  IG-0535          Management of the Stockpile                     12-18-01
                                   Surveillance Program’s Significant
Reports Issued




                                   Finding Investigations
                  IG-0537          Telecommunications Infrastructure               12-21-01      $20,000,0000
                  IG-0538          Special Report on “Management                   12-21-01
                                   Challenges at the Department of Energy”
                  IG-0539          Passive Magnetic Resonance Anomaly              01-11-02
                                   Mapping at Environment Management
                                   Sites
                  IG-0540          Advanced Radioisotope Power                     01-14-02      $27,500,0000
                                   Systems Program
                  IG-0541          Remediation and Closure of the Ashtabula        01-15-02      $67,000,0000       $5,000,0000
                                   Environmental Management Project
                  IG-0542          Soil Washing at the Ashtabula                   01-28-02        $6,100,0000
                                   Environmental Management Project
                  IG-0543          Relativistic Heavy Ion Collider Project         03-06-02
                  IG-0545          Cyber-Related Critical Infrastructure           03-20-02
                                   Identification and Protection Measures
                  IG-0546          Accounting for Sealed Sources of Nuclear        03-20-02
                                   Material Provided to Foreign Countries
                  IG-0548          Personnel Security Clearances and               03-26-02
                                   Badge Access Controls at Department
                                   Headquarters
                  IG-FS-02-01      Department of Energy’s Consolidated             02-13-02
                                   Financial Statements
                  CR-B-02-01       Fixed-Price Contracting for Department          10-15-01
                                   of Energy Cleanup Activities




                 Additional information on the OIG, including the full text of its public reports and Department
                 management’s comments, can be found on the OIG website – www.ig.doe.gov.                                 41
                                                           At Your Service

                 CR-L-02-01    Review of the Department’s                  02-11-02
                               Repayment Activities
                 CR-L-02-02    Federal Managers’ Financial Integrity Act   02-26-02
                               Audit Report
                 CR-FS-02-01   Management Letter on the Audit of the       03-29-02
                               Department of Energy’s Consolidated
                               Financial Statements for Fiscal Year 2001
                 CR-V-02-01    Assessment of Changes to the Internal       02-22-02
                               Control Structure and Their Impact on
                               the Allowability of Costs Claimed by and
                               Reimbursed to the Lockheed Martin
                               Corporation’s Knolls Atomic Power
                               Laboratory Under Department of Energy
                               Contracts No. DE-AC12-76SN00052 and
                               DE-AC12-00SN39357
Reports Issued




                 CR-V-02-02    Assessment of Changes to the Internal       02-22-02
                               Control Structure and Their Impact on
                               the Allowability of Costs Claimed by and
                               Reimbursed to the Bechtel Bettis, Inc.
                               Bettis Atomic Power Laboratory Under
                               Department of Energy Contract
                               No. DE-AC11-98PN38206
                 ER-L-02-01    The Department of Energy’s Strategy         02-07-02 $1,700,000,0000
                               for Disposal of Plutonium
                 ER-V-02-01    Assessment of Changes to the Internal     10-12-01
                               Control Structure and Their Impact on the
                               Allowability of Costs Claimed by and
                               Reimbursed to Westinghouse Savannah
                               River Company Under Department of
                               Energy Contract No. DE-AC09-96SR18500
                 WR-B-02-01    Power Marketing Administration’s            10-16-01     $2,700,0000
                               Installation of Fiber Optics
                 WR-B-02-02    Grant Administration at the Oakland         01-15-02
                               Operations Office
                 WR-L-02-01    Review of the Bi-National                   03-05-02
                               Sustainability Laboratory
                 WR-V-02-01    Assessment of Changes to the Internal       10-09-01                   $3,990,1950
                               Control Structure and Their Impact on the
                               Allowability of Costs Claimed by and
                               Reimbursed to Bechtel BWXT Idaho, LLC
                               Under Department of Energy Contract No.
                               DE-AC07-99ID13727




42
                                                         At Your Service

                 WR-V-02-02   Assessment of Changes to the Internal     10-29-01
                              Control Structure and Their Impact on the
                              Allowability of Costs Claimed by and
                              Reimbursed to Battelle-Pacific Northwest
                              National Laboratory Under Department of
                              Energy Contract No. DE-AC06-76RL01830
                 WR-V-02-03   Assessment of Changes to the Internal     03-12-02                $396,040,8810
                              Control Structure and Their Impact on the
                              Allowability of Costs Claimed by and
                              Reimbursed to TRW Environmental Safety
                              Systems, Inc., Under Department of Energy
                              Contract Numbers DE-AC01-91RW00134
                              and DE-AC08-91RW00134
Reports Issued




                                       The OIG’s Audit Followup Action:

                                       • OIG recommended corrective actions agreed to by
                                          the Department are tracked by the Department
                                          until complete.

                                       • The OIG follows up on all Department
                                          nonconcurrences with OIG report recommendations.

                                       • When the Department and the OIG disagree, the
                                          Department must prepare a Management Decision
                                          describing its position and any alternative action.

                                       • The Department’s Chief Financial Officer reviews
                                          the Management Decisions and may convene a
                                          meeting of the Departmental Internal Control and
                                          Audit Review Council (DICARC) to achieve mutually
                                          agreeable resolution.




                                                                                                        43
                                                              At Your Service

                                                  INSPECTION REPORTS ISSUED
                                                  October 1, 2001, to March 31, 2002*

                                      REPORT                                                      DATE OF
                                      NUMBER                           TITLE                       ISSUE

                                    IG-0530          Inspection of the Management of Personal     11-09-01
                                                     Property at the Ashtabula Environmental
                                                     Management Project

                                    IG-0531          Inspection of Cyber Security Standards for   11-13-01
                                                     Sensitive Personal Information

                                    IG-0533          Inspection of the Department of Energy’s     12-07-01
                                                     Automated Export Control System
Reports Issued




                                    IG-0534          Inspection of Lawrence Livermore National 12-14-01
                                                     Laboratory Protective Force and Special
                                                     Response Team (Classified)

                                    IG-0536          Follow-on Inspection of the Department of    12-20-01
                                                     Energy’s Value Engineering Program

                                    IG-0544          Inspection of the Accountability and         03-12-02
                                                     Control of Sealed Radioactive Sources at
                                                     Selected Department of Energy Sites

                                    IG-0547          Inspection of the Licensing of Trade         03-22-02
                                                     Secrets by Sandia National Laboratories

                                    INS-L-02-01      Oak Ridge Operations Office Management       01-03-02
                                                     of Personal Property

                                    INS-O-02-01      Inspection on the Management of Excess       11-08-01
                                                     Personal Property at Lawrence Livermore
                                                     National Laboratory



                                                INVESTIGATION REPORTS ISSUED
                                                 October 1, 2001, to March 31, 2002*

                                      REPORT                                                      DATE OF
                                                                       TITLE
                                      NUMBER                                                       ISSUE

                                    I01IG001         Review of Alleged Conflicts of Interest      11-13-01
                                                     Involving a Legal Service Contract for the
                                                     Yucca Mountain Project
                                    I01OP001         U.S. Department of Energy’s Purchase         02-26-02
                                                     Card Programs – Lessons Learned




                 * Does not include non-public reports.
44
                                                           At Your Service



                                               AUDIT REPORT STATISTICS
                                              October 1, 2001, to March 31, 2002

             The following table shows the total number of operational and financial audit reports, and the total
             dollar value of the recommendations.


                                                 TOTAL           ONE-TIME            RECURRING                  TOTAL
                                                NUMBER           SAVINGS              SAVINGS                  SAVINGS


              Those issued before the
              reporting period for which
              no management decision
              has been made:*                      19         $ 983,397,313         $491,516,670         $1,474,913,983
              Those issued during the
Statistics




              reporting period:                    29         $2,190,331,076        $ 38,000,000         $2,228,331,076

              Those for which a
              management decision
              was made during the                  17         $1,191,283,900        $355,925,274         $1,547,209,174
              reporting period:*

               Agreed to by management:                          $53,524,000        $203,296,000          $256,820,000
               Not agreed to by
               management:                                     $732,500,000         $147,000,000          $879,500,000

              Those for which a
              management decision is                9         $1,700,000,000              $0             $1,700,000,000
              not required:

              Those for which no
              management decision had
              been made at the end of the
              reporting period:*                   22         $2,387,704,389        $179,220,670         $2,566,925,059




             *The figures for dollar items include sums for which management decisions on the savings were deferred.




             Additional information on the OIG, including the full text of its public reports and Department
             management’s comments, can be found on the OIG website – www.ig.doe.gov.                                    45
                                                           At Your Service

                                                  AUDIT REPORT STATISTICS
                                                 October 1, 2001, to March 31, 2002

             The following table shows the total number of contract audit reports, and the total dollar value of
             questioned costs and unsupported costs.


                                                                TOTAL          QUESTIONED          UNSUPPORTED
                                                               NUMBER            COSTS                COSTS


               Those issued before the reporting period
               for which no management decision has
               been made:                                         4             $7,651,747             $84,241

               Those issued during the reporting period:          0                 $0                    $0

               Those for which a management decision
               was made during the reporting period:              1             $3,218,853                $0
Statistics




                Value of disallowed costs:                                      $   512,000               $0
                Value of costs not disallowed:                                  $2,706,853                $0
               Those for which a management decision
               is not required:                                   0                 $0                    $0

               Those for which no management
               decision had been made at the end of               3             $4,432,894             $84,241
               the reporting period:




46
                                                   At Your Service

                          REPORTS LACKING MANAGEMENT DECISION

             The following are audit reports issued before the beginning of the reporting period for
             which no management decisions had been made by the end of the reporting period, the
             reasons management decisions had not been made, and the estimated dates (where
             available) for achieving management decisions. These audit reports are over 6 months old
             without a management decision. The Department has a system in place which tracks audit
             reports and management decisions. Its purpose is to ensure that recommendations and
             corrective actions indicated by audit agencies and agreed to by management are addressed
             and effected as efficiently and expeditiously as possible.

             The Contracting Officers have not yet made decisions on the following contract audit
             reports and the reasons for not doing so included the delaying of settlement of final costs
             questioned in audits pending completion of review of work papers and voluminous
             additional records, additional work by the Defense Contract Audit Agency, and completion
             of certain legal and contractual investigations.
Statistics




             WR-C-95-01            Independent Final Audit of Contract No. DE-AC34-RIRF00025,
                                   July 26, 1990, to March 31, 1993, Wackenhut Services, Inc., Golden,
                                   Colorado, March 14, 1999
                                   (Estimated date of closure: September 30, 2002)

             ER-C-97-01            Report on Interim Audit of Costs Incurred Under Contract No.
                                   DE-AC24-92OR219721 from October 1, 1994, to September 30,
                                   1995, Fernald Environmental Restoration Management Corporation,
                                   Fernald, Ohio, December 20, 1996
                                   (Estimated date of closure: August 30, 2002)

             ER-C-00-03            Interim Audit of Thomas Jefferson National Accelerator Facility
                                   Costs Incurred Under Contract No. DE-AC05-84ER40150 Fiscal
                                   Years 1994 Through 1999
                                   (Estimated date of closure: June 30, 2002)

             Additional time was necessary to develop management decisions for the following reports.
             Further explanations for the delays follow each audit report.

             IG-0411               Contractor Incentive Programs at the Rocky Flats Environmental
                                   Technology Site, August 13, 1997

                                   The finalization of the management decision on this report is pending
                                   the resolution of one outstanding legal issue. Attempts to resolve this
                                   issue are continuing. This should occur by September 30, 2002.




                                                                                                       47
                                          At Your Service

             CR-B-99-02   Management of Unneeded Materials and Chemicals,
                          September 30, 1999

                          The recommendation to assign this responsibility to the Office of
                          Procurement and Assistance Management has been forwarded to the
                          Under Secretaries for approval. A management decision is expected
                          before September 30, 2002.

             IG-0457      Follow-up Audit of Program Administration by the Office of
                          Science, January 24, 2000

                          Final drafting of the management decision is underway. It is
                          expected that it will be approved by July 30, 2002.

             WR-B-00-07   Vehicle Use at Lawrence Livermore National Laboratory,
                          September 20, 2000
Statistics




                          A final management decision is being reviewed by the necessary
                          Department Element. It is estimated that this will occur by
                          May 30, 2002.

             IG-0508      Stocked Inventory at the Savannah River Site, June 27, 2001

                          Final negotiations on the management decision are proceeding.
                          It is expected that it will be approved by June 30, 2002.

             IG-0510      Use of Performance-Based Incentives at Selected Departmental
                          Sites, July 9, 2001

                          A final management decision is being reviewed by the necessary
                          Department Element. It is estimated that this will occur by
                          May 30, 2002.

             IG-0511      Research and Development at Lawrence Livermore National
                          Laboratory, July 9, 2001

                          Final Draft of Management Decision is underway. It is expected that
                          it will be approved by July 30, 2002.

             IG-0514      Administrative Control of the Hanford Reach National Monument,
                          July 19, 2001

                          A final management decision is being reviewed by the necessary
                          Department Element. It is estimated that this will occur by
                          May 30, 2002.

48
                                               At Your Service

             IG-0515   Control of Classified Matter at Paducah, July 30, 2001

                       Final drafting of the Management Decision is underway. It is expected that
                       it will be approved by May 30, 2002.

             IG-0516   Information Technology Support Services Contract, August 23, 2001

                       The finalization of the management decision is pending the
                       resolution of complex issues. This is expected to occur by June 30, 2002.

             IG-0519   The Department’s Unclassified Cyber Security Program, August 30, 2001

                       A final management decision is being reviewed by the necessary
                       Department Element. It is estimated that this will occur by May 30, 2002.
Statistics




                                                                                                   49
                                                                    At Your Service

                                                     INVESTIGATIVE STATISTICS
                                                    October 1, 2001, to March 31, 2002

             Investigations open at the start of this reporting period ......................................................... 189
             Investigations opened during this reporting period ................................................................ 73
             Investigations closed during this reporting period ................................................................. 78
             Investigations open at the end of this reporting period .......................................................... 184
             Qui Tam investigations opened..............................................................................................           4
                  Total open Qui Tam investigations as of 3/31/02 ......................................................... 27
             Multi-agency task force investigations opened ...................................................................... 15
                  Total open multi-agency task force investigations as of 3/31/02 .................................. 68
             Investigative reports to prosecutors and Department management ....................................... 16
             Recommendations to management for positive change and other actions............................. 43
             Administrative discipline and other management actions...................................................... 22
             Suspensions/Debarments .......................................................................................................        5
             Investigations referred for prosecution .................................................................................. 20
                  Accepted* ..................................................................................................................... 18
                  Indictments .................................................................................................................... 4
Statistics




                  Criminal convictions ..................................................................................................... 16
                  Pretrial diversions .......................................................................................................      1
                  Civil actions .................................................................................................................  4
             Fines, settlements, recoveries**........................................................................... $2,735,155.28

             *Some of the investigations accepted during the 6-month period were referred for
                 prosecution during a previous reporting period.
             **Some of the money collected was the result of task force investigations.




50
                                                                At Your Service

                                                    INSPECTION STATISTICS
                                                 October 1, 2001, to March 31, 2002


             Inspections open at the start of this reporting period .................................................                   52
             Inspections opened during this reporting period ........................................................                   22
             Inspections closed during this reporting period .........................................................                  18
             Inspections open at the end of this reporting period ..................................................                    56
             Reports issued (includes non-public reports) .............................................................                 12
             Inspection recommendations
                  Accepted this reporting period ..........................................................................             47
                  Implemented this reporting period .....................................................................               19
             Complaints referred to Department management/others ...........................................                           130
                  Referrals to Department management requesting a response for
                  OIG evaluation ...................................................................................................    29
Statistics




                                                            Hotline Statistics

             Hotline calls, e-mails, letters, and other complaints .................................................. 461

             Hotline calls, e-mails, letters, and other complaints predicated ................................. 175
             Hotline referrals received via the General Accounting Office
             and predicated ............................................................................................................ 5
             Unresolved Hotline predications from previous reporting periods ............................ 11
                  Total Hotline predications .................................................................................. 191

             Hotline predications transferred to the Management Referral System .....................                                  107
             Hotline predications closed based upon preliminary OIG activity ............................                               69
             Hotline predications pending disposition ...................................................................               15
                  Total predications processed ..............................................................................          191




                                                                                                                                        51
                             At Your Service

                           FEEDBACK SHEET



The contents of the April 2002 Semiannual Report to Congress comply with the
requirements of the Inspector General Act of 1978, as amended. However, there
may be additional data which could be included or changes in format which would
be useful to recipients of the Report. If you have suggestions for making the
Report more responsive to your needs, please complete this feedback sheet and
return it to:

                              Department of Energy
                              Office of Inspector General (IG-121)
                              Washington, D.C. 20585

                              ATTN: Wilma Slaughter



Your name:

Your daytime telephone number:

Your suggestion for improvement: (Please attach additional sheets if needed.)




If you would like to discuss your suggestion with a staff member of the Office of
Inspector General or would like more information, please call Wilma Slaughter at
(202) 586-1924 or contact her on the internet at wilmatine.slaughter@hq.doe.gov.
